No. 20-1434

 

IN THE

Supreme Court of the United States

LESLIE RUTLEDGE, in her official capacity as
Attorney General of the State of Arkansas, et al.,

Petitioners,
Vv.

LITTLE ROCK FAMILY PLANNING SERVICES, et al.,
Respondents.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Eighth Circuit

REPLY BRIEF FOR PETITIONERS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
2,993 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on July 13, 2021.

 

Wilson-Epes Printing Co., Inc.
